         Office Of Inspector General




November 16, 2005

LYNN MALCOLM
VICE PRESIDENT, CONTROLLER

SUBJECT:      Transmittal of Audit Report – Fiscal Year 2005 Postal Service Financial
              Statements Audit – Washington, D.C., Headquarters
              (Report Number FT-AR-06-002)

This report presents the results of our audit of selected financial activities and
accounting records at Postal Service Headquarters for the fiscal year ended
September 30, 2005 (Project Number 05BM006FT000). The Postal Reorganization Act
of 1970, as amended, requires annual audits of the Postal Service’s financial
statements. This audit was conducted in support of the independent public accounting
firm’s overall audit opinion on the Postal Service’s financial statements.

The audit disclosed that management’s financial accounting policies and procedures
conformed to accounting principles generally accepted in the United States and
provided for an adequate internal control structure. Additionally, general ledger account
balances for investments, unemployment compensation, and Governors and officers
travel and expenses were stated in the national trial balance in accordance with
accounting principles generally accepted in the United States. Also, we did not identify
any instances of noncompliance with laws and regulations that have a direct and
material effect on the financial statements. The results of the audit were discussed with
Postal Service management on November 8, 2005. Because there were no
recommendations provided, management chose not to respond to this report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Lorie Siewert,
Director, Financial Statements, or me at (703) 248-2300.


   E-Signed by Inspector General
 VERIFY authenticity with ApproveIt
Darrell E. Benjamin, Jr.
Acting Deputy Assistant Inspector General
 for Financial Operations

Attachment
cc: Richard J. Strasser, Jr.
    Robert J. Pedersen
    Vincent H. DeVito, Jr.
    Margaret A. Weir
    Steven R. Phelps
Fiscal Year 2005 Postal Service Financial Statements Audit –                        FT-AR-06-002
 Washington, D.C., Headquarters



                                         INTRODUCTION
Background                     Postal Service Headquarters Finance establishes
                               accounting policies and provides guidelines for recording
                               and reporting Postal Service financial transactions. Internal
                               control and reporting systems have been created to ensure
                               Postal Service management and the public receive
                               meaningful financial information in accordance with
                               generally accepted accounting principles. This audit was
                               conducted in support of the independent public accounting
                               firm’s overall audit opinion on the Postal Service’s financial
                               statements.

                               Separate financial statements audit reports will be issued for
                               the Eagan, San Mateo, and St. Louis Information
                               Technology and Accounting Service Centers (IT/ASCs).
                               Further, in addition to the overall opinion on the Postal
                               Service's financial statements, the Board of Governors’
                               independent public accounting firm — contracted to express
                               an opinion on the financial statements — will issue separate
                               reports on the Postal Service's internal controls and
                               compliance with laws and regulations. Also, a separate
                               report will be issued for the audit of fiscal year (FY) 2005
                               information system controls at the Eagan, San Mateo, and
                               St. Louis IT/ASCs.

Objectives, Scope,             The objectives of the audit were to determine whether:
and Methodology
                               •   The financial accounting policies and procedures
                                   provided for an adequate internal control structure and
                                   were in compliance with accounting principles generally
                                   accepted in the United States (U.S.).

                               •   Accounting transactions affecting the general ledger
                                   account balances for investments, unemployment
                                   compensation, and Governors and officers travel and
                                   expenses were fairly stated in the national trial balance
                                   in accordance with accounting principles generally
                                   accepted in the U.S.




                                                     1
Fiscal Year 2005 Postal Service Financial Statements Audit –                                          FT-AR-06-002
 Washington, D.C., Headquarters




                                  •   General ledger account balances conformed to the
                                      general classification of accounts of the Postal Service
                                      on a basis consistent with that of the previous years.1

                                  •   The Postal Service was in compliance with laws and
                                      regulations that have a material and direct effect on the
                                      financial statements as a whole.

                                 To accomplish our objectives, we assessed internal controls,
                                 tested transactions, and verified the following account
                                 balances as of September 30, 2005:

                                      •   $1.2 billion in short-term U.S. Treasury securities
                                      •   $42.2 million in unemployment compensation liability
                                      •   $59 million in investment income

                                  In addition, we verified the Board of Governors travel and
                                  miscellaneous expenses totaling about $118,000 and we
                                  tested and accepted officers travel and representation
                                  expenses totaling about $1.3 million.

                                  We conducted this audit from March through
                                  November 2005 in accordance with generally accepted
                                  government auditing standards and included such tests of
                                  internal controls as we considered necessary under the
                                  circumstances. We discussed our observations and
                                  conclusions with management officials and included their
                                  comments where appropriate.

                                  We relied on computer-generated data from several Postal
                                  Service financial systems, including the e-Travel system,
                                  Chase Insight, Workers’ Compensation Master File,
                                  Accounting Data Mart, and the General Ledger. We
                                  performed specific internal control and transaction tests on
                                  these systems’ data, including tracing selected financial
                                  information to supporting source records. For example, we
                                  reconciled the number of claimants and dollar amounts on
                                  the Workers' Compensation Master File against Department
                                  of Labor payment records.2

1
  This objective is applicable to the work done at the Eagan IT/ASC, based on feedback from Office of Inspector
General teams at the St. Louis and San Mateo IT/ASC sites and Postal Service Headquarters.
2
  This reconciliation includes the number and dollar amount of claims only and should not be construed as an opinion
regarding the validity of any claim.




                                                         2
Fiscal Year 2005 Postal Service Financial Statements Audit –                       FT-AR-06-002
 Washington, D.C., Headquarters




Prior Audit Coverage           We have audited the financial activities and accounting
                               records at Postal Service Headquarters since FY 1998 and
                               have not identified any reportable conditions. The results of
                               our most recent audit for FY 2005 were disclosed in the
                               audit report, Fiscal Year 2004 Postal Service Financial
                               Statement Audit – Washington, D.C., Headquarters (Report
                               Number FT-AR-05-006, dated January 10, 2005).




                                                     3
Fiscal Year 2005 Postal Service Financial Statements Audit –                      FT-AR-06-002
 Washington, D.C., Headquarters



                                         AUDIT RESULTS
Audit Results                  The audit disclosed that management’s financial accounting
                               policies and procedures conformed to accounting principles
                               generally accepted in the U.S. and provided for an adequate
                               internal control structure. Additionally, general ledger
                               account balances for investments, unemployment
                               compensation, and Governors and officers travel and
                               expenses were stated in the national trial balance in
                               accordance with accounting principles generally accepted in
                               the U.S. Also, we did not identify any instances of
                               noncompliance with laws and regulations that have a direct
                               and material effect on the financial statements.

Management’s                   The results of the audit were discussed with Postal Service
Comments                       management on November 8, 2005. Because there were
                               no recommendations provided, management chose not to
                               respond to this report.

Evaluation of                  No action by management was required.
Management’s
Comments




                                                     4
